<html>
<title> - H.R. 282, H.R. 3747, H.R. 4692 and H.R. 5318</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
              H.R. 282, H.R. 3747, H.R. 4692 and H.R. 5318

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 5, 2002

                               __________

                           Serial No. 107-151

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 5, 2002................................     1

Statement of Members:
    Bishop, Hon. Sanford, a Representative in Congress from the 
      State of Georgia, Oral statement on H.R. 4692..............     3
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................    22
        Prepared statement on H.R. 5318..........................    23
    Christensen, Hon. Donna M., a Delegate to Congress form the 
      U.S. Virgin Islands........................................    18
    Duncan, Hon. John J., a Representative in Congress from the 
      State of Tennessee.........................................     5
    Inslee, Hon. Jay, a Representative in Congress from the State 
      Washington, Oral statement on H.R. 3747....................     6
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio..........................................    19
        Prepared statement on H.R. 282...........................    21
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement on H.R. 282, H.R. 3747, H.R. 4692 and 
          H.R. 5318..............................................     2

Statement of Witnesses:
    Ash, Tracey, Secretary/Treasurer, Pyramid of Remembrance 
      Foundation, Mentor, Ohio...................................    23
        Prepared statement on H.R. 282...........................    24
    Hughes, Jim, Deputy Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................    13
        Prepared statement on H.R. 5318..........................    14
    Kordonowy, Hon. Darlene, Mayor, Bainbridge Island, Washington    30
        Prepared statement on H.R. 3747..........................    31
        Letter submitted for the record..........................    36
    Moriwaki, Clarence, Chair, Bainbridge Island WWII Nikkei 
      Internment and Exclusion Memorial Committee, Bainbridge 
      Island, Washington.........................................    28
        Prepared statement on H.R. 3747..........................    29
    Parsons, John, Associate Regional Director for Lands, 
      Resources, and Planning, National Capital Region, National 
      Park Service, U.S. Department of the Interior..............     8
        Prepared statement on H.R. 282...........................     8
        Prepared statement on H.R. 3747..........................    10
        Prepared statement on H.R. 4692..........................    12
    Sheffield, Langdon, President, Friends of Andersonville, 
      Americus, Georgia..........................................    25
        Prepared statement on H.R. 4692..........................    27


     LEGISLATIVE HEARING ON H.R. 282, TO AUTHORIZE THE PYRAMID OF 
   REMEMBRANCE FOUNDATION TO ESTABLISH A MEMORIAL IN THE DISTRICT OF 
 COLUMBIA OR ITS ENVIRONS TO SOLDIERS WHO HAVE LOST THEIR LIVES DURING 
  PEACEKEEPING OPERATIONS, HUMANITARIAN EFFORTS, TRAINING, TERRORIST 
 ATTACKS, OR COVERT OPERATIONS; H.R. 3747, TO DIRECT THE SECRETARY OF 
THE INTERIOR TO CONDUCT A STUDY OF THE SITE COMMONLY KNOWN AS EAGLEDALE 
 FERRY DOCK AT TAYLOR AVENUE IN THE STATE OF WASHINGTON FOR POTENTIAL 
  INCLUSION IN THE NATIONAL PARK SYSTEM; H.R. 4692, TO AMEND THE ACT 
 ENTITLED `AN ACT TO AUTHORIZE THE ESTABLISHMENT OF THE ANDERSONVILLE 
     NATIONAL HISTORIC SITE IN THE STATE OF GEORGIA, AND FOR OTHER 
PURPOSES', TO PROVIDE FOR THE ADDITION OF CERTAIN DONATED LANDS TO THE 
ANDERSONVILLE NATIONAL HISTORIC SITE; AND H.R. 5318, TO PROVIDE FOR AN 
 EXCHANGE OF CERTAIN PRIVATE PROPERTY IN COLORADO AND CERTAIN FEDERAL 
                           PROPERTY IN UTAH;

                              ----------                              


                      Thursday, September 5, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. The Subcommittee on National 
Parks, Recreation, and Public Lands will come to order. I want 
to thank everyone for being here today. We are considering 
three bills, or four bills.
    Our first bill as introduced is H.R. 282, which was 
introduced by Representative Steve LaTourette of Ohio. This 
would authorize the Pyramid of Remembrance Foundation to 
establish a memorial in the District of Columbia or its 
environs to soldiers who have lost their lives during 
peacekeeping operations, humanitarian efforts, training, 
terrorist attacks, or covert operations.
    The second bill is H.R. 3747, introduced by our Committee 
colleague Jay Inslee of Washington State, which would direct 
the Secretary of the Interior to conduct a study of the site 
commonly known as the Eagledale Ferry Dock at Taylor Avenue in 
the State of Washington for potential inclusion into the 
National Park System.
    The third one is H.R. 4692, introduced by Representative 
Sanford Bishop of Georgia, which would amend the Act 
establishing the Andersonville National Historic Site in the 
State of Georgia to provide for the addition of certain donated 
lands to the national historic site.
    And the final bill that we will hear is H.R. 5318, 
introduced by our Subcommittee colleague John Duncan of 
Tennessee, which would provide for an exchange of certain 
private property in Colorado and certain Federal property in 
Utah.
    I think that what we are going to do is go ahead and start 
with the first panel. Before that, though, I would ask 
unanimous consent that Mr. LaTourette, Mr. Bishop, and Mr. 
Inslee be permitted to sit on the dias following the 
statements. Without objection, so ordered.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of George P. Radanovich, a Representative in Congress from 
                        the State of California

    Good morning. The hearing will come to order.
    This morning the Subcommittee will hear testimony on four bills, 
H.R. 282, H.R. 3747, H.R. 4692, and H.R. 5318.
    Our first bill, H.R. 282, introduced by Representative Steve 
LaTourette of Ohio, would authorize the Pyramid of Remembrance 
Foundation to establish a memorial in the District of Columbia or its 
environs to soldiers who have lost their lives during peacekeeping 
operations, humanitarian efforts, training, terrorist attacks, or 
covert operations.
    Our second bill, H.R. 3747, introduced by our Committee Colleague 
Jay Inslee of Washington State, would direct the Secretary of the 
Interior to conduct a study of the site commonly known as Eagledale 
Ferry Dock at Taylor Avenue in the State of Washington for potential 
inclusion in the National Park System.
    Our third bill, H.R. 4692, introduced by Representative Sanford 
Bishop of Georgia, would amend the Act establishing Andersonville 
National Historic Site in the State of Georgia, to provide for the 
addition of certain donated lands to the National Historic Site.
    The final bill we will hear, H.R. 5318, introduced by our 
Subcommittee colleague John Duncan of Tennessee, would provide for an 
exchange of certain private property in Colorado and certain Federal 
property in Utah.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. LaTourette, Mr. Bishop, and Mr. Inslee be 
permitted to sit on the dais following their statements. Without 
objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 
    Mr. Radanovich. I am informed that Mrs. Christensen will be 
here shortly, and when she arrives, we will turn time over to 
her for any statement that she may have.
    With that, I think that, Mr. Bishop, I would like to 
welcome you to the Committee and appreciate your being here. If 
you would like to begin testimony on your bill, that would be 
terrific. Thank you.

STATEMENT OF HON. SANFORD BISHOP, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Bishop. Thank you very much, Chairman Radanovich, 
Ranking Member Dr. Christensen, distinguished witnesses, ladies 
and gentlemen. I would like to thank you for convening this 
meeting to discuss this legislation, which is so important to 
those people who live in the Second District of Georgia, those 
people who travel in and around the Macon County, Georgia, 
area, and those who have served in our armed forces and the 
POWs and members of their families all across our country.
    I come before the Committee today to ask for your support 
for H.R. 4692, a bill which I sponsored that would amend the 
1970 Act that established Andersonville as a National Historic 
Site. This legislation simply amends the original bill by 
allowing for an increase in the acreage ceiling in order to 
move a section of County Road 49, thereby providing direct 
access without using the interests of the park as a 
thoroughfare.
    Andersonville is a tribute to all of those who have served 
in our armed forces. After the National Park Service was 
authorized to create the National Prisoner of War Museum in 
1998, Andersonville became the only national park that serves 
as a memorial to all of America's prisoners of war throughout 
the history of our country. These are the men and women who 
served our country with the realization that the fate of 
becoming a POW is always a possibility during times of war. The 
Andersonville POW museum that exists today is truly a heart-
wrenching example of the great sacrifice that these men and 
women have performed for their country.
    Prior to 1998, three families living near the site on 
County Road 49 used an intersecting road known as 191 to access 
their homes. This was a dangerous road that was unpaved and had 
blind curves. In 1998, after the National Park Service was 
authorized to create the National Prisoners of War Museum on 
the grounds of Andersonville, the residents spoken of were 
allowed for safety purposes to use the new park entrance as a 
road courtesy of the Park Service. As a result of this use, the 
Park Service decided to leave the road open at night. It has 
since been determined, for obvious reasons, that leaving this 
entrance open during the night creates a security risk for the 
park.
    This legislation would allow a nonprofit group called the 
Friends of Andersonville to donate all their purchased land to 
the park. The additional 20 acres would allow a new road to be 
built giving these residents safe access to their homes while 
allowing the main entrance to the park to be closed at night. 
The Macon County Commission fully supports this project, as 
does the Park Service and, obviously, the residents of the 
homes that are in need of access. There is no known opposition 
to the plan.
    Mr. Chairman and Ranking Member Dr. Christensen, I would 
like to add that last week, my entire staff, my Washington 
staff as well as my district staff, had an opportunity to visit 
the Andersonville National Prisoner of War Museum while we were 
having a staff retreat down in the Second District. To see this 
museum in its finished form, a project of which I am very proud 
to have been a part, was truly moving. From the architecture 
design to symbolize a POW camp, to the bronze statute of the 
POW cradling the precious water from the very same stream that 
provided hope to the Union prisoners of war 138 years ago, the 
site is simply captivating.
    To see the look on my staffers' faces as we walked out into 
the main field where Union prisoners were kept so long ago, 
bordered by the manmade earthen barriers, was equally moving. 
We visited Andersonville on a very hot Georgia day. Our time 
out in the main prisoner area exposed to the elements was only 
temporary, but I could tell by the look on my staffers' faces 
that they were imagining being confined there and what it must 
have been like when it was, in fact, a prisoner of war camp.
    Inside the museum, the displays have been designed to 
chronologically take the visitor through the history of the 
wars in which the United States has participated. The 
conditions experienced by American POWs in each different war 
are present at the museum and are presented. In some instances, 
actual shackles from foreign prisons have been installed. Among 
the truly moving exhibits are personal accounts of POW 
experiences. Hundreds of these have been videotaped and 
archived and will remain as an historical record that is 
virtually unmatched.
    Mr. Chairman, am I to understand that that is a red light 
and that my time is expired?
    Mr. Radanovich. Thank you very much.
    Mr. Bishop. Thank you. I would like to welcome also one of 
the witnesses, Mr. Langdon Sheffield, who will be on the third 
panel but who represents the Friends of Andersonville, which is 
a nonprofit group that supports the Andersonville museum, the 
memorial site, and I would certainly ask consideration for him 
and I appreciate the Committee's indulgence in allowing me to 
join you on the rostrum.
    Mr. Radanovich. Thank you very much, Mr. Bishop, and 
indeed, you are all very welcome to join us on the dias as we 
hear from other members regarding some other bills and then 
move on to our next panel. Again, thank you for your testimony.
    Next, I want to introduce Congressman Jimmy Duncan of 
Tennessee to speak on H.R. 5318. Jimmy, welcome to your 
Committee.

  STATEMENT OF HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing today. The legislation I have 
introduced, which you just mentioned, involves a small land 
exchange in Colorado and Utah between a private property owner 
and the Bureau of Land Management. The reason that we have to 
do this through legislation is that the Federal Land and Policy 
Management Act, FLPMA, does not provide for cross-State 
exchanges and this property sits right on the State line. The 
property my constituent will be getting is in Utah. The 
property he is giving up is in Colorado, and he has a home 
right on the State line. I have introduced this, as I said, 
because this private property owner happens to be one of my 
constituents in Tennessee.
    This exchange is in the public interest for several 
reasons. One, the BLM will obtain property that will provide 
the public access to other BLM property that the public does 
not currently have access to without crossing private property.
    Secondly, my constituent has agreed to convey a 
conservation easement on the property that he will obtain to 
the Utah Division of Wildlife for the purposes of improving 
wildlife management in this area.
    Thirdly, my constituent is obtaining basically a rugged 
mountaintop area in Utah and giving up a portion of a beautiful 
valley in Colorado that has some water on it, and apparently, 
in his opinion, at any rate, will appraise for a greater value 
than the property that he is obtaining.
    The Utah Division of Wildlife supports this bill and it has 
agreed to accept the offer of this conservation easement. The 
Colorado Division of Wildlife supports the transfer. The 
legislation is supported by the Moffat County Commission, and 
this is the county that will obtain more public land. There are 
grazing rights on the BLM land that my constituent has met with 
the permit holders and they also support this bill. And I am 
pleased that Congressman Scott McInnis and Congressman Chris 
Cannon have signed onto this bill as original cosponsors. These 
are the two members whose districts contain the land involved 
in this transfer.
    Finally, we have included provisions in the bill to ensure 
that this is an exchange of equal value, perhaps even weighted 
more toward the government. Once the property has been 
appraised, any difference in value can be made up in either 
land or through cash payments.
    Just this morning, we have received a letter from the 
Southern Utah Wilderness Coalition--a phone call from the 
Southern Utah Wilderness Coalition, so you have environmental 
groups, you have the government, you have just about everybody 
who has taken a look at this supporting this. The BLM has not 
been able to analyze it fully as of yet, so they cannot come 
out and endorse it because they have had other exchanges that 
are bigger that they have had to spend time and money on, but I 
know that my constituent has been talking to the BLM for almost 
a year now and I think that anyone who looks at this in any 
detail is going to see that this is a good thing for the 
government, as well as my constituent.
    So I appreciate your holding this hearing and for allowing 
me to make this statement at this time. Thank you very much.
    Mr. Radanovich. Thank you very much, Jim.
    The third bill that we are here to be considering is H.R. 
3747, introduced by our Committee colleague Jay Inslee of 
Washington State. Jay, I see you in the back there. If you 
would like to come up and give us your testimony, we would 
greatly appreciate it.

STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chairman, members of the 
Committee. I appreciate an opportunity to talk about a pretty 
exciting bill for my neck of the woods and, I think, for the 
country. Let me preface my comments that this bill, when I was 
thinking about it, is sort of evidence of the fact that we have 
the greatest country that the world has ever known because when 
I was thinking about this bill, it made me realize that we are 
a country that learns from its history and learns from its 
mistakes and we improve as a result of that. And this bill to 
establish the Bainbridge Island Japanese American Memorial 
Study Act, would, in fact, help Americans learn from its 
history and help our continued march of progress on freedom and 
civil liberty.
    As you know, March 30, 1942, 227 people from Bainbridge 
Island, Washington, as a result of an Executive Order signed by 
the President of the United States, were marched at gunpoint by 
the U.S. Army to the Eagledale Ferry Dock at the end of Taylor 
Avenue in Bainbridge Island, Washington, where they were 
shipped to camps where they were kept in captivity with 
absolutely no legal redress or cause individually to themselves 
presenting any threat to the United States of America.
    And it is that event that we seek to memorialize and to 
begin that process with this study act. At the site, with this, 
one of the greatest violations of civil liberties in American 
history took place, and we do so for a couple of reasons. One, 
we do it out of pride in America, that we are a country that 
does not hide from our failures. We do not hide from 
misjudgments. We do not hide from instances where we have 
succumbed to fear, as we did in 1942. and the reason we do not 
is because we realize that if we know about what happened in 
our history, hopefully, we learn from it. And certainly 
following September 11, we understand fear and we understand 
the difficulties in working through the thick of the civil 
liberties and securities interests. I am happy that we have not 
followed what happened in 1942 since September 11, by and 
large.
    But we would seek to memorialize for the entire country the 
very beginning of this sad chapter in American history because 
we are proud of this country and we are proud of the fact that 
we want to share the lessons of the past so we do not repeat 
them.
    Secondly, this memorial is a tribute to the individuals 
involved, and I know quite a number of these individuals 
involved, many of whom still live on Bainbridge Island. We had 
a very, very successful and viable Japanese American community 
on Bainbridge Island, and happily, still do. There is a lot of 
courage and success in talking about the individuals who are 
involved in this sad tale. and the reason is that these folks 
came back and remained patriotic, good, solid, American 
citizens who are dedicated to their country, where many of 
their sons and daughters served for their country during World 
War II and came back and were welcomed in the arms of their 
neighbors on Bainbridge Island.
    And it is a tale of their individual courage, as well. It 
is not just a monument to what America needs to think about at 
the times it is in fear and crisis, but it is an individual 
monument to themselves, as well.
    And in part, it is also a monument to some individuals who 
supported those people. Bainbridge Island has a real 
interesting history. One of the reason this started on 
Bainbridge Island, this was the very first internment in 
America, and one of the reasons that was given is it was close 
to Fort Warden, which is a radio listening post, and we 
actually dedicated a part of Bainbridge Island to that radio 
listening post where we actually intercepted the Japanese radio 
transmission on December 7.
    Two weeks ago when I was there dedicating that park, I 
talked to a fellow who said that he had a day's liberty so that 
he could go down and work at Fort Warden and so that he could 
go down and protect the washing machine and pickup truck of one 
of the families that was interned. We have some happy and 
courageous individual stories that we should celebrate as well 
as have a position as close to the population center. This is 
the only place that is close to real Americans, where they 
live. It is a short ferry ride from downtown Seattle.
    We need on the West Coast of the United States a national 
monument, a national warhead to a site where people have access 
to, where they can tell their story for their children of what 
happens when we succumb to fear. This is a perfect spot for 
doing it. I hope that the Committee will pass this unanimously 
as quickly as possible.
    I stand for questions. Thank you very much.
    Mr. Radanovich. Thank you very much, Mr. Inslee, and again, 
please feel free to join us on the dias for the discussion by 
the next two panels.
    Mr. Inslee. Thank you very much.
    Mr. Radanovich. You are very welcome.
    Mr. Radanovich. Next up is H.R. 282, introduced by Steve 
LaTourette, which would authorize the Pyramid of Remembrance 
Foundation to establish a memorial that is in the District of 
Columbia. Steve is managing a bill on the floor and will not be 
here to testify. If he can make it at a later date, we will 
give him the opportunity, but that completes our first panel, 
so that what we will do is just move on to panel two, which 
consists of Mr. John Parsons, Associate Regional Director of 
the National Capital Region of the National Park Service, and 
Mr. Jim Hughes, Deputy Director of the Bureau of Land 
Management.
    Gentlemen, welcome. You are here to speak on all four 
bills. Mr. Parsons, if you would want to begin on behalf of the 
National Park Service, we would appreciate that, and if you 
could keep your comments under 5 minutes, that would be even 
more appreciated.

  STATEMENT OF JOHN PARSONS, ASSOCIATE REGIONAL DIRECTOR FOR 
   LANDS, RESOURCES, AND PLANNING, NATIONAL CAPITAL REGION, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Parsons. Good morning, Mr. Chairman, members of the 
Committee, and others. I will be testifying on all three bills 
and try to do this in 5 minutes.
    Let me start with H.R. 282, which is the bill introduced by 
Mr. LaTourette to authorize the Pyramid of Remembrance 
Foundation to erect a memorial here in the District of Columbia 
or its environs to soldiers who have lost their lives during 
peacekeeping operations, humanitarian efforts, training, 
terrorist attacks, or covert operation.
    The Department commends the idea of establishing such a 
memorial, which is particularly timely in light of the approach 
of the 1-year anniversary of September 11. Lives lost by 
members of our armed services in events that are not formally 
declared wars are very much in the minds of people today. 
However, we recommend that the Committee and sponsor work with 
the Department of Defense to develop an appropriate amendment 
that would authorize such a memorial to be established on 
military land rather than park land.
    The National Capital Memorial Commission, which is 
responsible for advising Congress on legislation authorizing 
memorials within the District of Columbia or its environs under 
the Commemorative Works Act of 1986 considered the proposal 
contained in H.R. 282 in April of last year. Section 3(b) of 
the Commemorative Works Act provides that a military 
commemorative work may only be authorized on park land to 
commemorate a war or a similar major military conflict or to 
commemorate a branch of the United States armed services. The 
Commission, therefore, advised the most appropriate placement 
for this memorial would be on military property and the 
Department concurs with the Commission in that regard.
    For that reason, we recommend that H.R. 282 be amended to 
authorize the Pyramid of Remembrance to be established on 
military property and to eliminate the bill's references to the 
Commemorative Works Act, which applies only to land in the 
nation's capital under our jurisdiction under the General 
Services Administration. We also recommend the bill's title be 
amended to use the same term for those who would be honored 
that is used in the text of the bill, that is, they refer to 
soldiers in one location and members of the armed services in 
the other. We feel that should be clarified.
    The administration would be pleased to work with the 
Committee and Representative LaTourette, as we have in the 
past, to address our technical concerns.
    [The prepared statement of Mr. Parsons on H.R. 282 
follows:]

   Statement of John Parsons, Associate Regional Director for Lands, 
    Resources, and Planning, National Capital Region, National Park 
            Service, Department of the Interior on H.R. 282

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R 282, a bill sponsored by 
Representative LaTourette to authorize the Pyramid of Remembrance 
Foundation to establish a memorial in the District of Columbia or its 
environs to soldiers who have lost their lives during peacekeeping 
operations, humanitarian efforts, training, terrorist attacks, or 
covert operations.
    The Department commends the idea of establishing such a memorial, 
which is particularly timely in light of the approach of the one-year 
anniversary of September 11. Lives lost by members of our Armed 
Services in events that are not formally declared wars are very much on 
the minds of all Americans these days. However, we recommend that the 
committee and sponsor work with the Department of Defense to develop an 
appropriate amendment that would authorize such a memorial to be 
established on military land rather than park land.
    The National Capital Memorial Commission, which is responsible for 
advising Congress on legislation authorizing memorials within the 
District of Columbia and its environs under the Commemorative Works Act 
of 1986, considered the proposal contained in H.R. 282 in April, 2001. 
Section 3(b) of the Commemorative Works Act provides that a military 
commemorative work may only be authorized on park land to commemorate a 
war or similar major military conflict or to commemorate a branch of 
the Armed Services. The Commission therefore advised that the most 
appropriate placement for this memorial would be on a military 
property. The Department concurs with the Commission about this matter.
    For that reason, we recommend that H.R. 282 be amended to authorize 
the Pyramid of Remembrance to be established on military property and 
to eliminate the bill's references to the Commemorative Works Act, 
which applies only to land in the Nation's Capital under the 
jurisdiction of the Department of the Interior and the General Services 
Administration. We also recommend that the bill's title be amended to 
use the same term for those who would be honored that is used in the 
text of the bill. The Administration would be pleased to work with the 
committee and Representative LaTourette to address our technical 
concerns.
    Mr. Chairman, this concludes my remarks. I will be happy to answer 
any questions you or the other committee members have.
                                 ______
                                 
    Mr. Parsons. We move then to the next bill, which is H.R. 
3747, a bill to direct the Secretary of Interior to conduct a 
study of the site we have just heard described by Mr. Bishop 
known as Eagledale Ferry Dock on Bainbridge Island in the State 
of Washington for potential inclusion in the National Park 
System.
    Mr. Radanovich. That was Mr. Inslee, I think. Did you 
mention somebody else?
    Mr. Parsons. I am sorry. Of course, it was. Thank you very 
much.
    The Department does not oppose this bill. Presently, there 
are 34 similar studies pending which have been authorized by 
Congress which we expect to transmit forward those back to the 
Congress by the end of this year.
    To meet the President's initiative to eliminate the 
deferred maintenance backlog in the National Park Service, we 
must continue to focus our resources on caring for existing 
areas. Thus, we have concerns about adding new funding 
requirements for new park units, national trails, wild and 
scenic rivers, or heritage areas at the same time we are trying 
to reduce our maintenance backlog. As such, we would identify 
all acquisition, one-time and operational costs of the proposed 
site as part of this study. At this time, none of these costs 
are known.
    Because of their proximity to Fort Warden, a key Pacific 
theater listening post, the Japanese Americans from Bainbridge 
Island were the first group to be interned under the Civilian 
Exclusion Order Number 1. On March 30, 1942, 6 days after the 
order was initiated, 227 men, women, and children were forcibly 
removed from their homes, boarded the ferry at Eagledale, bound 
for Manzanar and Minidoka relocation centers. Members of an 
exceptionally integrated community on the small island, their 
internment was strongly protested by the local newspaper editor 
and many members of the community. Powerful historic 
photographs record the passage of the internees as they were 
marched down Taylor Avenue to the ferry dock. Many of the 
internees returned to their Bainbridge Island home after the 
war to rebuild their lives. Survivors and their children and 
grandchildren, together with the larger Bainbridge community, 
are today committed to creating an enduring memorial to honor 
the internees and tell the story of the internment.
    The National Park Service manages Manzanar National 
Historic Site and the Minidoka Internment National Monument, to 
which many of these internees were taken. We have recently 
begun developing a general management plan for Minidoka 
Internment National Monument, which was established in 2001. 
This plan will consider the relationships of sites such as 
Eagledale Ferry Dock to the Minidoka Internment National 
Monument. The National Park Service is also working with 
citizens' groups and the city of Bainbridge Island to document 
the significance of the Eagledale Ferry Dock site as it relates 
to the story of the internment of Japanese and Japanese 
Americans during World War II.
    The National Park Service is sponsoring National Historic 
Landmark theme studies related to the history of Japanese 
Americans and to the home front during World War II. Both 
studies should provide significant information on the history 
of the Japanese in the Pacific Northwest, including those who 
settled on Bainbridge Island.
    That concludes my testimony on that matter.
    [The prepared statement of Mr. Parsons on H.R. 3747 
follows:]

   Statement of John Parsons, Associate Regional Director for Lands, 
    Resources, and Planning, National Capital Region, National Park 
            Service, Department of the Interior on H.R. 3747

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on H.R. 3747, a bill to direct the Secretary of 
Interior to conduct a study of the site commonly known as Eagledale 
Ferry dock at Taylor Avenue in the state of Washington for potential 
inclusion in the National Park System.
    The Department does not oppose this bill. Presently, there are 34 
studies pending, of which we expect to transmit 4 to Congress by the 
end of 2002. We have also testified this Congress on 15 proposals that 
would authorize studies of new sites. To meet the President's 
Initiative to eliminate the deferred maintenance backlog, we must 
continue to focus our resources on caring for existing areas in the 
National Park System. Thus, we have concerns about adding new funding 
requirements for new park units, national trails, wild and scenic 
rivers or heritage areas at the same time that we are trying to reduce 
the deferred maintenance backlog. As such, the Department will identify 
all acquisition, one time and operational costs of the proposed site. 
At this time, those costs are unknown.
    Because of their proximity to Fort Warden, a key Pacific theater 
listening post, the Japanese-Americans from Bainbridge Island were the 
first group to be interned under Civilian Exclusion Order No. 1. On 
March 30, 1942 only six days after the order was issued, 227 men, 
women, and children were forcibly removed from their homes, boarded the 
ferry at Eagledale, bound for Manzanar, and later Minidoka Relocation 
Centers. Members of an exceptionally integrated community on the small 
island, their internment was strongly protested by the local newspaper 
editor and many members of the community; powerful historic photographs 
record the passage of the internees as they were marched down Taylor 
Avenue to the ferry dock. Many of the internees returned to their 
Bainbridge Island home after the war to rebuild their lives. Survivors 
and their children and grandchildren, together with the larger 
Bainbridge community, are today committed to creating an enduring 
memorial to honor the internees and tell the story of internment.
    The National Park Service has begun developing a General Management 
Plan for the Minidoka Internment National Monument established in 2001. 
Inasmuch as the Eagledale Ferry dock was used as the embarkation point 
for Japanese and Japanese-Americans forced to move to internment camps, 
the General Management Plan will consider the relationship of sites 
such as the Eagledale Ferry Dock to the Minidoka Internment National 
Monument. The National Park Service has also been working with citizen 
groups and the City of Bainbridge Island to document the significance 
of the Eagledale Ferry Dock site as it relates to the story of the 
internment of Japanese and Japanese Americans during World War II.
    At the national level, the National Park Service is sponsoring 
National Historic Landmark theme studies related to the history of 
Japanese Americans and to the home front during World War II. Both 
studies should provide significant information on the history of the 
Japanese in the Pacific Northwest, including those who settled on 
Bainbridge Island. In addition, we serve as the stewards of two of the 
camps to which the Bainbridge internees were sent--Manzanar National 
Historic Site and Minidoka Internment National Monument.
    This concludes my testimony. Thank you for the opportunity to 
discuss this issue and I would be willing to answer any questions you 
may have on this issue.
                                 ______
                                 
    Mr. Parsons. Now we will move to Mr. Bishop's proposal. 
This bill, of course, would authorize the increase in acreage 
ceiling of the Andersonville National Historic Site from 500 to 
520 acres.
    The Department enthusiastically supports H.R. 4692. The 
bill would facilitate the conclusion of the scenic and 
appropriately respectful approach to this historic park while 
enhancing the safety of our visitor and park neighbors. 
Inclusion of this land in the historic site would not entail 
additional expenses for the National Park Service because the 
management and operation of the land added to the boundary 
would not result in any additional facilities, operating costs, 
or staffing.
    The story of Andersonville National Historic Site revolves 
around Camp Sumter, the largest prisoner of war camp in the 
Civil War. The camp held 45,000 Union prisoners, of which 
12,920 died of starvation or disease. The park's 1970 enabling 
legislation requires the park to share the larger story of the 
Civil War POWs held in Northern and Southern camps along with 
all POWs in American history. The park also operates the only 
active national cemetery in Georgia.
    In 1998, during dedication ceremonies for the National 
Prisoner of War Museum, a new park entrance road was opened. In 
2001, the Friends of Andersonville acquired a 20-acre parcel of 
land contiguous to that entrance road with the specific intent 
of assisting the park in the creation of a more visually 
appealing and appropriate approach into the park. However, the 
Friends have been prevented from donating the land to the 
National Park Service as they wish to do because the park's 
land base is held at 496 acres and it has nearly reached, of 
course, the 500-acre limitation. So H.R. 4692 would increase 
the allowable size of the park to 520 acres, thereby enabling 
the Park Service to accept this generous donation.
    The Friends of Andersonville started locally in 1985. It 
has become a valued partner in the management of Andersonville 
National Historic Site, and membership from throughout the 
country includes descendants of prisoners of Andersonville, as 
well as former POWs from several of America's recent conflicts. 
This Friends group is active with local youth groups, 
participates in educational outreach programs, and is integral 
to the management of the National Prisoner of War Museum.
    The park's general management plan and land protection plan 
recognize the need for a safer and statelier entrance to the 
park. Until recently, County Road 191, used by three land 
owners to access their residences, bisected the park entrance 
road in a manner that created a safety hazard for visitors and 
park neighbors. Macon County has corrected this safety issue by 
closing the county road and developing an improved alternative 
access for these three residences to Georgia Highway 49. The 
completion of the county's actions, coupled with this 
acquisition, sets the stage for establishing a landscaped 
entrance to the prisonsite, the museum, and the cemetery that 
is in keeping with the reverential and historical nature of the 
site.
    Providing for the Park Service management of the additional 
20 acres will also allow for improved security at the park. 
Repositioning the park entrance road gate to this location will 
enhance the ability of the park to prevent vandalism and 
inappropriate use of the park and national cemetery lands 
during the night.
    Thank you very much, Mr. Chairman, and I stand ready to 
answer any questions you may have.
    Mr. Radanovich. Thank you very much, Mr. Parsons.
    [The prepared statement of Mr. Parsons on H.R. 4692 
follows:]

   Statement of John Parsons, Associate Regional Director for Lands, 
    Resources, and Planning, National Capital Region, National Park 
         Service, U.S. Department of the Interior on H.R. 4692

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 4692. This bill would 
authorize an increase in the acreage ceiling of the Andersonville 
National Historic Site from 500 to 520 acres, thus allowing the 
National Park Service to accept the donation of a twenty-acre parcel of 
land contiguous to the Historic Site.
    The Department supports H.R. 4692. The acquisition would allow the 
National Park Service to create a scenic and appropriate approach to 
this historic park, while enhancing the safety of our visitors and park 
neighbors. The inclusion of this land into the Historic Site would not 
entail additional expenses for the National Park Service because the 
management and operation of the land added to the boundary would not 
result in any additional facilities, increased operating costs, or 
additional staffing.
    The story of Andersonville National Historic Site revolves around 
Camp Sumter, the largest Prisoner of War camp in the Civil War. The 
camp held 45,000 Union prisoners, of which 12,920 died from starvation 
or disease. The park's 1970 enabling legislation requires the park to 
share the larger story of Civil War POWs held in northern and southern 
camps, along with all POWs in American history. The park also operates 
the only active national cemetery in Georgia.
    In 1998, during dedication ceremonies for the National Prisoner of 
War Museum, which is included within the park, a new park entrance road 
was opened. In 2001, the Friends of Andersonville acquired a 20-acre 
parcel of land contiguous to the entrance road, with the specific 
intent of assisting the park in creating a more visually appealing and 
appropriate approach into Andersonville National Historic Site.
    However, the Friends have been prevented from donating the land to 
the National Park Service, as they wish to do, because the park's land 
base, at 496 acres, has nearly reached its maximum authorized size of 
500 acres. H.R. 4692 would increase the allowable size of the park to 
520 acres, thereby enabling the National Park Service to accept this 
donation.
    The Friends of Andersonville, started locally in 1985, has become a 
valued partner in the management of Andersonville National Historic 
Site. Their membership, from throughout this country, includes 
descendants of prisoners of Andersonville as well as former POWs from 
several of America's recent conflicts. This Friends group is active 
with local youth groups, participates in educational outreach programs 
and is integral to the management of the National Prisoner of War 
Museum.
    The park's General Management Plan and Land Protection Plan 
recognize the need for a safer and statelier entrance to the park. 
Until recently, County Road 191, used by three land owners to access 
their residences, bisected the park entrance road in a manner that 
created a safety hazard for visitors and park neighbors. Macon County 
has corrected this safety issue by closing the county road and 
developing an improved alternative access for these three residences to 
Georgia Highway 49. The completion of the County's actions, coupled 
with this acquisition, sets the stage for establishing a landscaped 
entrance to the prison site, the museum, and the cemetery that is in 
keeping with the reverential and historical nature of the site.
    Providing for National Park Service management of the additional 20 
acres will also allow for improved security at the park. Repositioning 
the park entrance road gate will enhance the ability of the park to 
prevent vandalism and inappropriate use of the park and national 
cemetery lands during the night.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Mr. Hughes, welcome to the Committee, and 
if you want to begin your testimony on H.R. 5318, we would 
appreciate it.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Hughes. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to appear here today to discuss 
H.R. 5318, a bill to provide for the exchange of certain 
private property in Colorado and certain Federal property in 
Utah.
    The Bureau of Land Management has some concerns about the 
exchange, which I will briefly discuss. Based on these 
discussions, the Department of Interior does not support the 
legislation at this time. I will summarize my written remarks 
that we have submitted for the record.
    H.R. 5318 provides for an exchange of approximately 2,048 
acres of private property in Colorado and approximately 3,888 
acres of Federal property in Utah and in Colorado. The bill 
requires an appraisal to be done of the properties, that any 
difference in the value of the properties be equalized, and 
that a conservation easement to the State of Utah be placed on 
the Federal lands to be exchanged under the bill.
    The private land has not been identified as necessary or 
desirable for Federal acquisition in the existing BLM land use 
management plan for the area. The land abuts the BLM's Diamond 
Breaks Wilderness Study Area, WSA, but it does not exhibit 
wilderness characteristics nor would its acquisition by the 
Federal Government significantly improve access to the Diamond 
Breaks WSA. Other private lands would continue to block access 
routes to public lands in the general area, we believe at this 
time.
    There are other elements that should be considered by 
Congress in directing the BLM to implement this exchange. 
First, there have been no assessments to determine whether 
hazardous materials or noxious weed infestations might exist on 
the property. Such review would help avoid potential liability 
for the public.
    Second, the private lands encompass several small 
reservoirs. Acquiring these might obligate the government to 
conduct inspections and, if necessary, to bring dams into 
compliance with dam safety regulations.
    Third, there are some old buildings on the private land 
that could potentially create a liability for the Federal 
Government and might need to be removed prior to conveyance.
    Fourth, an inventory of archaeological, paleontological, 
and historic resources should be conducted and boundary surveys 
will need to be completed in order to determine the accuracy of 
the boundaries with other adjacent private lands.
    The Federal land consists of two parcels located within a 
large consolidated block of public lands located to the 
northwest of the Dinosaur National Monument in Colorado and 
Utah. The land has not been identified for transfer from 
Federal ownership in the BLM land use management plan for this 
area. The BLM manages these lands currently for multiple-use 
resources that include grazing and outdoor recreation. Four-
wheel-drive trails cross these public lands and provide access 
to the mountaintop for hunting and general outdoor recreation. 
The area is considered crucial summer range for deer and elk, 
as well as habitat for sage grouse. Finally, the public lands 
include archaeological and paleontological sites.
    The bill requires immediate conveyance without limitation 
of the public land involved in the exchange. This would not 
apparently be conditioned on whether or not the land owner can 
convey acceptable title to the United States, nor does the 
legislation make provisions for title insurance to protect 
against defects in the title. These are important elements to 
protect the public interest in any land exchange.
    No provision is made for sharing any of the costs, other 
than appraisal costs, associated with this exchange, which 
should include compliance with the National Environmental 
Policy Act, NEPA, cultural resource assessments, hazardous 
material clearances, and administrative and title transfer 
costs. The legislation would impose a disproportionate share of 
the costs for implementing this exchange on the Federal 
taxpayer.
    Finally, it is important to note that conservation 
easements can represent a significant portion of the property's 
appraised value. The proposed legislation requires the transfer 
of a conservation easement as part of the land exchange, but 
does not specify whether the conservation easement must be 
considered in establishing the appraised value of the public 
land. Typically, the conveyance of such a conservation easement 
is a condition precedent to completion of the exchange, rather 
than being included as a reversion requirement as is currently 
provided by the bill.
    H.R. 5318 presents a number of issues that would need to be 
worked out before the Department could view this exchange to be 
in the public interest and offer support for it. The Department 
is prepared to work with the Committee and the bill's sponsor 
in a cooperative manner to determine if we can reach this 
point. I would be pleased to answer any questions that you or 
other members of the Subcommittee may have.
    Mr. Radanovich. Thank you, Mr. Hughes.
    [The prepared statement of Mr. Hughes follows:]

 Statement of Jim Hughes, Deputy Director, Bureau of Land Management, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss H.R. 5318, a bill ``to 
provide for an exchange of certain private property in Colorado and 
certain Federal property in Utah.'' The Bureau of Land Management (BLM) 
has some concerns about the exchange, which are discussed more fully 
below. Based upon those concerns the Department does not support the 
legislation at this time.

Overview
    H.R. 5318 provides for an exchange of approximately 2,048 acres of 
private property in Colorado and approximately 3,888 acres of Federal 
property in Utah and in Colorado. The bill requires appraisals of both 
the Federal and private lands sought to be exchanged, and provides the 
appraisal costs be shared equally between the private property owner 
and the Federal Government. H.R. 5318 also requires that any difference 
in the value of the properties to be exchanged be equalized through a 
monetary payment or a reduction in the amount of land conveyed. 
Finally, the bill mandates the conveyance of a conservation easement to 
the State of Utah on the Federal lands to be exchanged within two years 
of the date of conveyance in order to protect the cultural and natural 
resources located on the land to be transferred under the bill.

Private Land to be Exchanged
    The private lands proposed for exchange represent an aggregation of 
five parcels which originated as homestead lands that were settled in 
the 1920s and 1930s. This land has not been evaluated for its livestock 
grazing, habitat or recreation potential and it has not been identified 
as necessary or desirable for Federal acquisition in the existing BLM 
land use management plan for the area. The land abuts the BLM's Diamond 
Breaks Wilderness Study Area (WSA), but it does not exhibit wilderness 
characteristics nor would its acquisition by the Federal Government 
significantly improve physical or legal access to the Diamond Breaks 
WSA because other private lands would continue to block access routes 
to public lands in the general area.
    There are other elements that should be considered by Congress in 
directing the BLM to implement such an exchange. First, there have been 
no assessments to determine whether hazardous materials or noxious weed 
infestations might exist on the property. Such review would help us to 
avoid potential liability for the public. Second, the private lands 
encompass the Miles Reservoir and other small reservoirs. Acquiring 
these will obligate the government to conduct inspections and if 
necessary, to bring such dams into compliance with dam safety 
regulations. This can be a significant expense. Third, existing 
improvements on the private land (such as old buildings and fences) may 
create liability for the Federal Government and might need to be 
removed prior to conveyance. Fourth, an inventory of archaeological, 
paleontological, and historical resources should be conducted and 
boundary surveys will need to be completed in order to determine the 
location and accuracy of the boundaries with other adjacent private 
lands.

Federal Land to be Exchanged
    The Federal land identified in H.R. 5318 consists of two parcels 
located within a large, consolidated block of public lands located to 
the northwest of the Dinosaur National Monument in Colorado and Utah. 
The land has not been identified for transfer from Federal ownership in 
the BLM land use management plan for this area. The BLM manages these 
lands for multiple resource uses that include grazing and outdoor 
recreation. They are within the Ruple Cabin Grazing Allotment permitted 
to the Uintah Basin Grazing Association, and we understand that the 
Uintah Basin Grazing Association has entered into a grazing lease with 
the land exchange proponent. Four-wheel drive trails also cross these 
public lands and provide access to the mountain top for hunting and 
general outdoor recreation. The area is considered crucial summer range 
for deer and elk as well as habitat for sage grouse. Finally, the 
public lands do include archaeological and paleontological sites, one 
of which is called the Hatch Cove Site.

Other Issues
    The bill requires immediate conveyance, without limitation, of the 
public land involved in the exchange, if the owners of the private land 
convey title to the private land to the United States. This would not 
apparently be conditioned on whether or not the landowner can convey 
acceptable title to the United States, nor does the legislation make 
provision for title insurance to protect against defects in the title. 
These are important elements to protect the public interest.
    Additionally, the bill requires that appraisal costs be shared 
equally between the government and the private landowner. No provision 
is made, however, for sharing any of the other costs associated with 
this land exchange, which should include compliance with the National 
Environmental Policy Act (NEPA), cultural resource assessments, 
hazardous material clearances, and administrative and title transfer 
costs. As written, the legislation would impose a disproportionate 
share of the costs for implementing this exchange on the Federal 
taxpayers, with no demonstrated proportionate benefits.
    Finally, it is important to note that conservation easements can 
represent a significant portion of a property's appraised value. The 
proposed legislation requires the transfer of a conservation easement 
as part of the land exchange, but it does not specify whether the 
conservation easement must be considered in establishing the appraised 
value of the public land. Typically, the conveyances of a conservation 
easement are a condition precedent to completion of the exchange, 
rather than being included as a reversionary requirement, as is 
currently provided by the bill. To be properly considered, the 
conservation easement must be executed, recorded, and placed in escrow 
before titles are transferred in the land exchange.

Conclusion
    As stated above, H.R. 5318 presents a number of issues that would 
need to be worked out before the Department could view this exchange to 
be in the public interest and offer support for it. The Department is 
prepared to work with the Committee and the bill's sponsor in a 
cooperative manner to determine if we can reach that point.
    Thank you for the opportunity to testify before you today. I would 
be pleased to answer any questions that you or the other members of the 
Subcommittee may have.
                                 ______
                                 
    [An attachment to Mr. Hughes' statement follows:]
    [GRAPHIC] [TIFF OMITTED] T1552.004
    
    Mr. Radanovich. I now recognize the ranking member, Mrs. 
Christensen, for any opening statements or any questions.

  STATEMENT OF HON. DONNA M. CHRISTENSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I apologize for 
arriving a bit late. I would like to welcome my colleagues here 
this morning and the other members of the panel from the 
Department of Interior.
    The first measure, H.R. 282, which authorizes a private 
organization, the Pyramid of Remembrance Foundation, to 
establish a memorial on Federal land to honor members of the 
armed forces of the United States who have lost their lives 
during peacekeeping operations, humanitarian efforts, training, 
terrorist attacks, or covert operations, would be funded 
privately, as I understand.
    I certainly share Representative LaTourette's desire to 
honor the commitment and sacrifice of soldiers lost in such 
peacekeeping or humanitarian efforts. However, as you know, Mr. 
Chairman, the issues surrounding the addition of new memorials 
on land in and around Washington are complicated and so I 
support the National Park Service position that it is better 
placed on military property and we look forward to working with 
you on that.
    Our second bill, H.R. 3747, introduced by our colleague on 
the Resources Committee, Jay Inslee, would provide for a 
special resource study of the Eagledale Ferry Dock at 
Bainbridge Island in Washington State. It is our hope that the 
study provided by this bill would help in the interpretation 
and appropriate remembrance of the social injustice and 
hardships that were inflicted upon numerous Japanese Americans 
during World War II and we are pleased to support that bill, as 
well.
    Our third bill, sponsored by my good friend and colleague 
Sanford Bishop, is quite straightforward in that it simply 
expands the authorized size of the Andersonville National 
Historic Site by 20 acres. Once enacted, this increase would 
allow the local Friends group to donate property they recently 
acquired to the National Park Service so that it could be added 
to this site. As we heard in Congressman Bishop's testimony, 
there is no controversy, no opposition regarding this proposal 
and so we are pleased to support that, as well.
    Our final bill, which was introduced by Representative 
Duncan, our colleague on the Committee, provides for a land 
exchange in Colorado and Utah. It is our understanding that 
this new bill is a successor to H.R. 4996 that Representative 
Duncan introduced in June. I share many of the questions 
associated with this land exchange proposal and I look forward 
to hearing other testimony on some of those issues, such as the 
valuation, the resources involved, the current and proposed 
uses, and the apparent waiver of many of the normal procedures 
found in law for accessing land exchanges.
    I do not have any specific questions at this time, Mr. 
Chairman, so I will yield back the balance.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I now recognize the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Let me tell you that, 
first of all, I think that most of the concerns that the BLM 
has raised about this legislation are things that can easily be 
addressed and worked out, because every group that has looked 
at this, and the only ones that have looked at it have been the 
environmental and government groups because there are no 
development proposals, there are no business groups involved, 
everyone who has looked at it has come out in favor of it.
    I have many things that I can say, but I will be very 
brief. The Director of the Utah Division of Wildlife Resources 
says, in part, in his letter, the proposed easement would 
preclude development and would facilitate range improvements 
beneficial to several species of wildlife, i.e., big game, sage 
grass, et cetera. This exchange would open opportunities for 
our agency and Mr. Rogers to work cooperatively on habitat 
projects on his private lands in Utah and would improve public 
access to BLM lands in Colorado.
    Then the Director of the Division of Wildlife in Colorado 
has written this exchange. It would benefit sportsmen in 
Colorado by opening up thousands of acres of Federal land that 
in the past was blocked to public access. In addition, the 
private land in Utah would have a conservation easement placed 
on the property to protect habitat in perpetuity.
    Have you seen those letters, Mr. Hughes?
    Mr. Hughes. Yes, we have. The two from the two States? Yes, 
sir.
    Mr. Duncan. So I think that when everybody looks at this, I 
just hope that we do not delay this thing indefinitely since 
this is a smaller exchange and not a huge one in the overall 
picture because I do think it is justified. I yield back the 
balance of my time.
    Mr. Radanovich. Thank you very much, Mr. Duncan.
    Mr. Bishop, did you have any questions of the panel?
    Mr. Bishop. No, I did not.
    Mr. Radanovich. OK, great. Any other questions of this 
panel? If not, Mr. Parsons, Mr. Hughes, thank you for being 
here and that completes your testimony.
    I would like to introduce Mr. Steve LaTourette, our 
colleague, regarding H.R. 282, a bill that would authorize the 
Pyramid of Remembrance Foundation to establish a memorial in 
the District of Columbia or its environs to soldiers who have 
lost their lives during peacekeeping operations, humanitarian 
efforts, training, terrorist attacks, and covert operations.
    Mr. LaTourette, thanks for being available to the Committee 
and you are certainly welcome to begin your testimony.

    STATEMENT OF HON. STEVE LaTOURETTE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. LaTourette. Thank you very much, Mr. Chairman. I want 
to thank you and the other members of the Subcommittee for 
making time for this piece of legislation. I know that the 
Subcommittee has a lot of important work to do, but I did want 
to, first of all, ask unanimous consent that my entire 
statement appear in your record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. LaTourette. Thank you. I will be joined today on this 
legislation by Ms. Tracey Ash, who will speak specifically to 
the foundation that has been established under 501(c)(3) 
permission for the construction, hopefully, of the Pyramid of 
Remembrance. I wanted to come by this morning and just talk a 
little personally about why I feel committed to this project.
    When I was first sworn in in the 104th Congress, I was 
approached by a group of high school students at Riverside High 
School and they were in an arts concept class. During the 
course of that class, they had seen what now most of America 
has seen if they watched the movie ``Black Hawk Down.'' They 
saw the horrifying site of an American serviceman being dragged 
through the streets of Mogadishu. They began looking around to 
determine where a person who died in an undeclared war would be 
remembered and honored in our nation's capital, and they, like 
I, after they came to see me, were surprised that there was no 
such thing.
    Each and every year, people die in training accidents, men 
and women who have put on the uniform of the United States 
armed forces. Every year, it seems that the United States is 
engaged in some peacekeeping operation in Somalia or in Bosnia 
and now in Afghanistan, the war on terrorism. All are 
undeclared wars and all of the casualties in those wars will 
have no memorial separate and apart from any other memorial in 
Washington, D.C.
    The wonderful thing about this proposal, not only is it 
appropriate, is that it is being led by Generation X, that 
generation of people that are not supposed to care about much 
of anything. And as I indicated, I first introduced this 
legislation in 1995 and have every Congress since then. It 
passed the 106th Congress under suspension, thanks to the work 
of the Committee at the time. But the students obviously in the 
last 8 years have graduated from high school. They are now in 
college. Some have graduated from college. They continue to 
come back and back and back in support of this project.
    So if for no other reason than that, I am committed to 
making sure that this legislation passes and that they have the 
opportunity to have the foundation authorized and they can 
begin raising money for planning, construction, and let us get 
this thing done.
    I know that in conversations that my staff has had with the 
Subcommittee staff, there are some concerns about the ability 
of this foundation, comprised of high school students, college 
students, business leaders, and community leaders, to get the 
job done in terms of raising the money. I think when you hear 
from Ms. Ash, you are going to find that this is as dedicated a 
group as you will find anywhere in the country and I have 
absolute faith that they will do it.
    We have submitted to you, I think, articles that have 
appeared in the American Legion magazines and we have already 
gotten the eye of some national organizations. We have letters 
of support that we have sent to you from former Secretary of 
Defense Cohen, former Chief of Staff to the Army Chiefs of 
Staff Shelton, and former President Bush 41. They all thought 
it was a good idea. I do, too. I hope you do, too, and I hope 
you will help us move this legislation and I yield back my 
time.
    Mr. Radanovich. Thank you very much, Steve.
    [The prepared statement of Mr. LaTourette follows:]

 Statement of Hon. Steven C. LaTourette, a Representative in Congress 
                       from the State of Oklahoma

    Mr. Chairman, when I first came to Congress in 1995, a group of 
students from Riverside High School in Painesville, OH, asked to meet 
with me and presented an idea for a military memorial in our nation's 
capital to honor the men and women of our Armed Forces who've died in 
training exercises, peacekeeping missions, humanitarian efforts and 
terrorist attacks. The students vowed to honor this sacrifice with a 
memorial called the ``Pyramid of Remembrance.
    While I was immediately convinced of the worthiness of the 
students'' proposal, in all honesty I feared these students had 
stumbled onto a great idea that was already taken. Surely, I thought, 
there must be a memorial in Washington to honor those who die in 
peacekeeping accidents, training exercises, humanitarian efforts and 
terrorist attacks. I was wrong.
    No such memorial exists. One should. Today, we have an opportunity 
to make this worthy military memorial one step closer to reality.
    H.R. 282 will authorize a foundation to create the Pyramid of 
Remembrance. The memorial will be built on Department of Defense land 
here in the Washington area, and without the use of taxpayer funds. It 
is important to note, Mr. Chairman, that no one has suggested this 
memorial be placed on the Mall, and that is not under consideration. 
Instead, the Pyramid of Remembrance will be erected on DoD land. Fort 
McNair is one location that's been suggested, but site selection is 
many steps down the road.
    The Pyramid of Remembrance has attracted some high-level 
endorsements--- from former Secretary of Defense William Cohen, Gen. 
Hugh Shelton, former chairman of the Joint Chiefs of Staff, and former 
President Bush.
    Mr. Chairman, our nation has been reeling since the terrorist 
attacks of September 11th, and here in Washington we are especially 
mindful of the loss of life at the Pentagon. In the last Congress, we 
mourned the loss of life of 17 sailors who were killed when a bomb 
ripped a 40-by-40 foot hole in the hull of the great USS Cole in the 
Yemeni port of Aden. Nearly 40 other sailors were injured in that 
terrorist attack, including a young man from Lorain County in my home 
state of Ohio.
    Today, there is no memorial in Washington to specifically honor 
these men and women of courage, largely because their heroism and 
sacrifice occurred in a time other than a declared conflict. Their 
sacrifice doesn't fall into one tidy category, but it is just as worthy 
of those who died fighting in our greatest wars. What's more, the 
sacrifice of the men and women of the USS Cole and the Pentagon surely 
reflects the changing role of our Armed Forces as we enter this new 
century and a host of new challenges, including terrorism directed 
specifically at the United States of America.
    Mr. Chairman, the idea for the Pyramid of Remembrance originated in 
a classroom in Painesville, OH, and was sparked by the sight of a U.S. 
soldier being dragged through the streets of Mogadishu, Somalia. That 
horrible image was seared into our nation's consciousness, and it 
spurred discussion of other worthy sacrifice that is regrettably 
overlooked. The National Capital Memorial Commission has already heard 
about our proposal for the Pyramid of Remembrance, and made it quite 
clear that they believe it will fill a void in our nation's military 
memorials.
    Not only will the Pyramid of Remembrance honor those who died in 
terrorist attacks on the Pentagon and the USS Cole, but also those who 
lost their lives in Somalia, Bosnia, Kosovo and Panama; during the 
bombing of the Marine barracks in Beirut; during the failed rescue 
attempt of American hostages in Iran; and in the far too many deadly 
training accidents that occur on land, in air and at sea so our forces 
can be ready for combat.
    Mr. Chairman, September 11th has caused Americans to pause and 
ponder the true cost of our freedom. In all corners of the world, 
members of the Army, Navy, Air Force, Marines and Coast Guard lay their 
lives on the line every single day so our freedom remains secure. That 
has never been more true than in our current War on Terror.
    Such heroism, courage and dedication to our country is to be 
commended, and deserves permanent recognition here in Washington. The 
Pyramid of Remembrance will be an enduring memorial spawned by the 
youth of America and pledged to all other generations as well. It will 
honor those who died defending our country in our nation's earliest 
days and for centuries to come. It will provide great comfort to the 
loved ones of those whose courageous sacrifice often fades from the 
public's memory after memorial services conclude and ``Taps'' has been 
played.
    Mr. Chairman, I thank the students of Riverside High School for 
coming up with this wonderful idea, and for not giving up on their 
dream. I also thank the fine folks at STERIS Corp. and Lubrizol Corp. 
who have devoted their time to this worthy cause and the establishment 
of the Pyramid of Remembrance Foundation. I hope you will join me in 
supporting this worthy legislation, and am happy to address any 
questions you might have.
                                 ______
                                 
    Mr. Radanovich. Any questions? Again, thank you, Mr. 
LaTourette. If you want to join us on the dais to speak to the 
next panel, you are very welcome to.
    Mr. LaTourette. Thank you very much.
    Mr. Radanovich. With that, I will introduce our next panel, 
which consists of Ms. Tracey Ash, Secretary-Treasurer of the 
Pyramid of Remembrance Foundation, Mentor, Ohio; the Honorable 
Darlene Kordonowy, the Mayor of Bainbridge Island, Washington; 
Mr. Clarence Moriwaki, who is the Chair of the Bainbridge 
Island World War II Nikkei Internment and Exclusion Memorial 
Committee from Bainbridge Island, Washington; and Mr. Langdon 
Sheffield, President of the Friends of Andersonville, Americus, 
Georgia.
    We have got four bills here to talk about and I hope that 
everybody will stay within the 5-minute limit. Otherwise, you 
will hear from me when it goes red.
    Before we begin, though, I want to recognize the gentleman 
from Utah, Mr. Cannon, to speak briefly on H.R. 5318, the land 
transfer bill.

 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I apologize for being 
late. We had a markup in Judiciary that we just finished and I 
needed to be there to vote.
    First of all, let me say that I am excited to see that one 
of Mr. Duncan's constituents has realized how beautiful parts 
of my district are, and if he knows any others who would like 
to exchange Federal lands for lands in Utah, we would be happy 
to work with them on that issue.
    The reason I cosponsored H.R. 5318 is because I believe it 
would be significantly beneficial to all the parties involved. 
It has the support of the Uintah Basin Grazing Association, the 
Utah Division of Wildlife, Moffat County, and others. With over 
64 percent of Utah's land being owned by the Federal 
Government, I think it is a good thing when the amount of 
Federal land in the State of Utah is reduced and this bill does 
that. It also means revenues from private lands and taxes for 
the county of Daggett in Utah.
    I realize that there are some concerns and BLM has raised 
some good points and there are some people out West who also 
have some concerns. I can guarantee you that we will work with 
these concerned parties and resolve all these concerns before 
the bill proceeds further.
    With that, I yield back the balance of my time and thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Cannon follows:]

 Statement of the Hon. Chris Cannon, a Representative in Congress from 
                           the State of Utah

    Thank you Mr. Chairman,
    First of all, let me say that I am excited to see that one of Mr. 
Duncan's constituents has realized how beautiful parts of my district 
and state are. If he knows of any others that would like to exchange 
federal lands in Utah for some private lands, please, let me know.
    The reason I cosponsored H.R. 5318 is because I believe it will be 
beneficial to all parties involved.
    It has the support of the Uintah Basin Grazing Association, the 
Utah Division of Wildlife, Moffat County, and others.
    With over 64% of Utah's land being owned by the federal government, 
I think it's a good thing when the amount of federal land in the state 
of Utah is reduced. This bill does that.
    I realize there may be some concerns. The BLM has raised some good 
points in their testimony and some people out West also have some 
concerns.
    I can guarantee you that we will work with these parties and 
resolve all of these concerns before the bill proceeds further.
    With that, I yield back the balance of my time.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Cannon.
    With that, we will begin with the testimonies of each. I am 
going to move from my left to right. Ms. Ash, welcome to the 
Committee and if you would begin your testimony, that would be 
great.

   STATEMENT OF TRACEY ASH, SECRETARY-TREASURER, PYRAMID OF 
              REMEMBRANCE FOUNDATION, MENTOR, OHIO

    Ms. Ash. Good morning. Good morning and thank you, Mr. 
Chairman and Committee. This morning, I was flying into 
Washington and I looked down upon your beautiful city and I saw 
from the sky the monuments and the landmarks that dot your 
landscape and I felt proud. I reflected upon this view and knew 
that I was in a special place, that I was looking at the heart 
and soul and power of the United States.
    But in this single snapshot, I knew this was a place that 
lets everyone from every nation know that we are serious about 
sustaining the rights of democracy. We show that we honor and 
appreciate those people who fought to protect this right, and 
it is important that we remember.
    What we have come here to realize since September 11 is 
that when life is good, we take a lot for granted. We took for 
granted the policemen and the firemen and our military 
personnel who have chosen a career that puts their lives in 
inherent danger on a daily basis. They chose this job to 
protect our country, our freedoms, our rights, and our 
citizens. They do such a good job that for us, life is good. 
But the catch is, we soon forget.
    This monument should be built here so everyone will 
remember and know that we honor and appreciate every man and 
woman who protects our rights and the rights of others. We are 
here before you this morning to tell you that our Committee, 
that we are committed to this effort, that we have put the 
foundation in place to see that the Pyramid of Remembrance is 
built. We have secured our 501(c)(3) nonprofit status. We have 
put together a team of business leaders to take this to a 
national effort. We have the support of nationally recognized 
New York Stock Exchange corporations with more to follow. And 
we are doing the due diligence to learn and know the best way 
to proceed.
    We are committed to the military, their families, our 
veterans, and the youth who conceived this idea to see that 
this monument is built and built properly. Once this bill is 
passed, we are prepared to hit the ground running.
    Chairman, Committee, I ask you, what is it that you need to 
know from us to help you make your decision and what can you 
tell us that we need to know to understand so that we can 
proceed? Thank you.
    Mr. Radanovich. Thank you very much, Ms. Ash.
    [The prepared statement of Ms. Ash follows:]

  Statement of Tracey Ash, Trustee, Pyramid of Remembrance Foundation

    I appreciate the opportunity to testify in support of HR 282. My 
name is Tracey Ash and I am a trustee with the Pyramid of Remembrance 
Foundation. Our organization seeks to establish a national memorial to 
honor members of our armed forces who have lost their lives during 
peacekeeping operations, humanitarian efforts, training accidents, 
terrorist attacks or covert operations.
    I want to speak of our resolve and ability to raise the funds and 
lead this project to a successful completion.
    The idea to honor military personnel killed during undeclared wars 
was first conceived in 1993 by Riverside High School students in 
Painesville Township, Ohio during the Somalian conflict in Mogadishu. 
The photo that appeared on our televisions and newspapers of Staff Sgt. 
William Cleveland being dragged through the streets of Mogadishu has 
forever been galvanized in their minds and consciousness. The event 
that most Americans have seen re-enacted in the recent movie, 
``BlackHawk Down'' was the catalyst for these students to recognize the 
need for a monument honoring these forgotten soldiers and all military 
persons who have died in the line of duty. Events of the ensuing 
decade, including the bombing of the USS Cole and the tragedy of 
September 11 underscore the importance of their vision. Weekly we read 
in our papers of soldiers killed in military accidents. As one student 
remarked, ``just because soldiers are killed during peacekeeping 
missions and training accidents doesn't mean they shouldn't be 
remembered with a memorial--their sacrifices are the same as those who 
perished in WWII and Vietnam.'' What we have learned and must recognize 
is that our military personnel have chosen a career that is filled with 
inherent danger and that their lives are at risk everyday in order to 
allow us, as Americans the freedoms we enjoy today. We must 
``Remember'' those who have died protecting them.
    The National Capital Memorial Commission has said the Pyramid of 
Remembrance would fill a void in our nation's military monuments. The 
idea has received endorsements from former President George Bush, 
former Secretary of Defense William S. Cohen and General Henry Shelton, 
former Chairman of the Joint Chiefs of Staff. We have attached copies 
of their letters for your review.
    We are dedicated to building this memorial because it is the right 
thing to do.
    An undertaking of this scope will require a coordinated, nation-
wide campaign. We have researched the efforts and chronology of other 
groups who are pursuing national monuments. These include the WWII 
Memorial on the Mall, the Martin Luther King Jr. Memorial on the Tidal 
Basin and the Air Force Memorial at the Navy Annex site overlooking the 
Pentagon. We are factoring their experiences into our plans. There is a 
challenging and complex road ahead of us.
    Our organizational capabilities, board governance and fund-raising 
strategies are being developed in anticipation of legislation being 
passed by Congress in 2002. When President Bush signs Congressman 
LaTourette's bill into law, support will escalate rapidly across the 
country. We are positioning ourselves to ``hit the ground running'' 
when this occurs.
    The Foundation achieved 501(c)(3) tax-exempt status earlier this 
year. A strategic plan was created using input from business 
professionals, community leaders, educators, students, veterans and 
other stakeholders. It includes our mission, values and objectives. 
Partnerships among businesses, civic organizations, government 
officials and community leaders at the local and national level will 
make this memorial a reality.
    Management expertise has been secured from local and national 
organizations. Our Board of Advisors and Trustees are leaders in the 
community. They are professionals in business, legal, finance and 
marketing. They include educators and students. Some serve on the 
boards of other foundations and non-profit organizations. Our goal is 
to broaden our leadership base as the project moves forward to the 
national level.
    Support for this memorial continues to expand well beyond the 
classroom walls where it began. It has grown locally to include our 
chamber of commerce and other community - based organizations. They 
have helped us take important first steps in this journey across 
America. It is now becoming a national undertaking. This is compelling 
testimony to the power of perseverance and collaboration--how a 
community can help a small group of civic-minded students make a 
lasting difference for an admirable cause.
    Even at this early stage - without a bill being passed, executives 
from two national corporations with global operations are serving on 
our Board of Trustees. The Lubrizol Corporation and the STERIS 
Corporation are both listed on the New York Stock Exchange. Their 
headquarters are in Lake County, Ohio--close to where Riverside High 
School is located. One of those executives, David Enzerra, Lubrizol 
General Manager has joined me today to help answer questions. We have 
letters of support from the Chief Executive Officers of both of these 
organizations. They advocate the type of corporate involvement in 
community projects we need to be successful.
    This enthusiasm is being extrapolated to the national level. We are 
confident as word of this project spreads, additional support, 
expertise and infrastructure will be secured to raise the funds to 
construct this memorial. We have contacted the offices of Senator 
DeWine and Senator Voinovich in this regard. Both indicate strong 
interest in sponsoring a companion bill to expedite passage in the 
Senate. We look forward to working with the appropriate committees in 
the Senate as we are doing in the House.
    Once the bill is signed into law our fund-raising, site selection 
and monument design activities can proceed in earnest.
    Regarding site selection and design - we will work responsively 
with the appropriate Federal agencies such as the National Park Service 
and the National Capital Memorial Commission. We intend to comply fully 
with the Commemorative Works Act.
    Regarding financing - we will incorporate the best practices others 
have used to build memorials. We will seek endorsements from nationally 
known and respected individuals and organizations. These include 
military personnel, veterans groups and celebrities. We will utilize 
professional fund-raising expertise and proven strategies such as 
tiered giving from national corporations, foundations, individuals and 
stakeholders. Students across America will be involved because of the 
unique educational aspects of this endeavor.
    In summary, please be assured the Pyramid of Remembrance Foundation 
is prepared to take full responsibility for managing this project and 
raising the required funds once legislation is passed. We appreciate 
any advice and assistance you can provide. You can be confident 
supporting HR 282 knowing that our Foundation has both the passion and 
the wherewithal to turn the dream of our students into a reality for 
America.
                                 ______
                                 
    Mr. Radanovich. We are going to allow everybody to testify 
before we open up the panel for questions.
    Next, we will begin with Mr. Langdon Sheffield. Welcome to 
the Committee, Mr. Sheffield. The buzzers mean we do have votes 
coming up. It allows us some time. If you could stay within 
your 5-minute limit, we will hear from perhaps you and Mr. 
Moriwaki and then we will have to break briefly for a vote, so 
feel free to begin.

     STATEMENT OF LANGDON SHEFFIELD, PRESIDENT, FRIENDS OF 
                ANDERSONVILLE, AMERICUS, GEORGIA

    Mr. Sheffield. Very good. Mr. Chairman and members of the 
House National Parks Committee, it is indeed an honor to 
represent the Friends of Andersonville and offer testimony 
today on behalf of H.R. 4692.
    This is not my first trip to Washington to ask for 
Congressional support regarding the Andersonville National 
Historic Site. In the 1960's, I came to Washington with a 
number of individuals, including our local State Senator, Jimmy 
Carter, to ask Congress to pass legislation that would create 
the Andersonville National Historic Site. Part of this has just 
been a national cemetery, very active with that, but not 
attentive at all to tourism, which we are so interested in now.
    Our delegation met with Senators Russell and Talmedge and 
Secretary of the Interior Udall. That bill was passed and now 
that legislation designated the Andersonville to be the 
memorial for all prisoners of war in American history.
    My second trip to Washington on behalf of Andersonville was 
in the mid-1990's. I then asked for Congressional support to 
build a visitors' center and a museum to honor all prisoners of 
war in American history that would tell their story to this and 
future generations.
    My organization, the Friends of Andersonville, along with 
the American Ex-Prisoners of War, raised a substantial share of 
the construction funds for that museum. The Friends of 
Andersonville is made up of 210 members across the country. The 
museum was opened in 1998 and Senator John McCain of Arizona 
came and dedicated this wonderful facility. Since that time, 
over a million visitors have come to this powerful place to 
learn its remarkable story.
    In 1996, our organization, under the leadership of my good 
friend Carl Runge, created an endowment fund that would support 
in perpetuity the Andersonville National Historic Site and the 
National Prisoner of War Museum. We call this fund the 
Andersonville Trust. Since 1996, we have raised over $800,000 
in the coffers of this fund. We have conservatively invested 
these funds, using only the interest and not the corpus to 
benefit the park.
    Shortly after the National Prisoner of War Museum opened, 
the National Park Service approached the Friends of 
Andersonville for help on a specific issue. A county road 
bisected the new park's entrance, presenting a security and 
safety value that was unacceptable. The only way this problem 
could be solved would be by acquiring a parcel of land that 
would allow the road to be rerouted, thus providing access to 
Georgia Highway 49 for the residents living near the park's 
boundary. The Friends of Andersonville purchased 20 acres of 
land for $50,000 from the land owner. This was a lengthy and 
complex process.
    The Friends have owned the land for approximately 1 year. 
Through the Macon County Board of Commissioners, the Friends 
requested that the county road be rerouted so that it would not 
bisect the park entrance road. This was accomplished less than 
a month ago. Also, we asked Boy Scouts to help landscape this 
new land so that it would match with other adjacent park land. 
Through a local Eagle Scout project, 100 trees were planted, 
which were all designated by former prisoners of war.
    Mr. Chairman, the Friends of Andersonville and the people 
of Sumter and Macon County, Georgia, are extremely proud of our 
relationship with the National Park Service at Andersonville 
National Historic Site. Also, we are proud of the wonderful 
story that is told on how captive Americans serving our 
nation's military have persevered for the sake of freedom 
despite the most horrible conditions and circumstances. For 
this reason, our organization continues to support the efforts 
of the National Park Service and urges the speedy passage of 
the legislation to allow the Friends of Andersonville to donate 
this land to the government for the purpose of the National 
Park Service.
    Mr. Chairman, again, I thank you for the opportunity to 
speak and to represent our organization in sharing our 
unwavering support for Congressman Bishop's important 
legislation.
    Mr. Radanovich. Thank you very much, Mr. Sheffield.
    [The prepared statement of Mr. Sheffield follows:]

    Statement of Lang Sheffield, President, Friends of Andersonville

    Mr. Chairman and members of the House of National Parks 
Subcommittee ''..It is indeed an honor to represent the Friends of 
Andersonville and offer testimony today on behalf of House Bill 4692. 
This is not my first trip to Washington to ask for congressional 
support regarding the Andersonville National Historic Site. In the 
1960s, I came to Washington with a number of other distinguished 
individuals including our local State Senator, Jimmy Carter, to ask for 
Congress to pass legislation that would create the Andersonville 
National Historic Site. We met with Senators Russell and Talmedge along 
with Secretary of the Interior Udall to press for the site's inclusion 
in the National Park Service. That bill was passed and that legislation 
designated Andersonville to be the memorial for all prisoners of war in 
American history. My second trip to Washington on behalf of 
Andersonville was in the mid 1990s. I then asked for congressional 
support to build a Visitor Center and Museum to honor all prisoners of 
war in American history that would tell their story to this and future 
generations. My organization, the Friends of Andersonville along with 
the American Ex-Prisoners of War, raised a substantial share of the 
construction funds for that museum. The Friends of Andersonville is 
made up of 210 members across the country. The museum was opened in 
1998 and Senator John McCain of Arizona came and dedicated this 
wonderful facility. Since that time, over a million visitors have come 
to this powerful place to learn its remarkable story. In 1996, our 
organization under the leadership of my good friend, Carl Runge, 
created an endowment fund that would support in perpetuity 
Andersonville National Historic Site and the National Prisoner of War 
Museum. We called this fund the Andersonville Trust. Since 1996, we 
have raised over $800,000 in the corpus of this fund. We have 
conservatively invested those funds and used only the interest and not 
the corpus in benefiting the park. Shortly after the National Prisoner 
of War Museum opened, the National Park Service approached the Friends 
of Andersonville for help on a specific issue. A county road bisected 
the new park's entrance road presenting a security and safety issue 
that was unacceptable. The only way that this problem could be solved 
would be through acquiring a parcel of land that would allow the road 
to be re-routed; thus, providing access to Georgia Highway 49 for the 
residents living near the park's boundary. The Friends of Andersonville 
purchased 20-acres of land for $50,000 from the landowner. This was a 
lengthy and complex process. The Friends have owned the land for 
approximately one-year. Through the Macon County Board of 
Commissioners, the Friends requested that the county road be re-routed 
so that it would not bisect the park entrance road. This was 
accomplished less than a month ago. Also, we asked area Boy Scouts to 
help landscape this new land so that it would match with other adjacent 
park land. Through a local Eagle Scout project, 100 trees were planted 
all of which were donated by former-POWs.
    Mr. Chairman, the Friends of Andersonville and the people of Sumter 
and Macon County, Georgia are extremely proud of our relationship with 
the National Park Service at Andersonville National Historic Site. 
Also, we are proud of the wonderful story that is told of how captive 
Americans serving in our nations military have persevered for the sake 
of freedom despite the most horrible conditions and circumstances. For 
this reason, our organization continues to support the efforts of the 
National Park Service and urge the speedy passage of this legislation 
to allow the Friends of Andersonville to donate this land to the 
government for the purposes of the National Park Service.
    Mr. Chairman...Again, I thank you for the opportunity to speak and 
to represent our organization in sharing our unwavering support for 
Congressman Bishop's important legislation. Thank you.
                                 ______
                                 
    Mr. Radanovich. Mr. Moriwaki, if you would like to begin 
your testimony and keep it as brief as possible, you will allow 
us 5 minutes to get over and make our vote, so if you would 
like to begin, that would be great.

 STATEMENT OF CLARENCE MORIWAKI, BAINBRIDGE ISLAND WWII NIKKEI 
          INTERNMENT AND EXCLUSION MEMORIAL COMMITTEE,

    Mr. Moriwaki. If you would like, I could continue after 
your vote.
    Mr. Radanovich. It is better to do it now, if you could.
    Mr. Moriwaki. Certainly.
    Mr. Radanovich. That would be great.
    Mr. Moriwaki. Thank you, Chairman Radanovich and Ranking 
Member Christensen and other members of the Committee. American 
history always remembers, and rightfully so, the first places, 
and the mere mention of those places, you already know what 
that moment in history is, like Kitty Hawk or Plymouth Rock. We 
believe that Eagledale Ferry Landing at Taylor Avenue on 
Bainbridge Island, Washington, is definitely one of those first 
places.
    It is the very first place where the first Japanese 
Americans were forcibly removed from their homes and taken to 
concentration camps with only 6 days' notice to take care of 
their belongings. They had friends on the island that would do 
that, but most places did not. Most people lost a lot of 
things. And they were the first people that went to Manzanar 
concentration camp.
    The beauty about what happens on Bainbridge Island, should 
this become a national memorial, is we already have those 
national monuments at Manzanar and Minidoka where the 
Bainbridge Island people went to, but they are, by design, in 
far remote locations. The government wanted them far away and 
it is a hard place for people to learn about this period in our 
nation's history.
    Bainbridge Island, as Jay Inslee will probably tell you, is 
this beautiful place six miles just west of Seattle. It is a 
30-minute ferry ride and it is going to be in the reach of a 
lot more people to learn about this period in our country's 
history.
    The important thing that we should remember is that this 
was a huge violation of constitutional rights that the 14th 
Amendment and these citizens were denied all their privileges. 
One-third of the Bainbridge Island people were already going to 
serve in the U.S. military, an irony, since they were taken 
away to concentration camps and they were given weapons to 
fight for this country.
    Clearly, the historical significance of this site is beyond 
recognition. I have distributed a packet to you that contains 
background material, including a study that I think will help 
the Park Service do this study in record time. This is probably 
one of the most documented moments in our nation's history. We 
have also done preliminary work to try to get National Landmark 
status and that work is within your packet and we hope you will 
have a chance to look at that.
    What we also have, March 30, 1942, with the 60th 
anniversary of that event, we have commemorative tags that are 
in that packet. This is marked to remember the tags that the 
people were forced to wear. They were the tags that were 
exactly like the luggage tags. They were only allowed to take 
what they could carry or wear, and some layered up in clothing 
because they were not knowing where they were going or how long 
they would be there and if they would ever even come back. 
These tags, everybody wore at that ceremony. There were 500 
people who came on that Easter Saturday.
    I just want to share two things that happened there. We 
had--probably the most moving ceremony was the reading of all 
272 names of the people who were forced to leave. As the Mayor 
will testify and Jay Inslee and others who were there, it was 
pretty quiet, and the names started being read and these crows 
started to caw, you know, caw, caw. As the list got longer and 
longer, they got louder and louder to where my friends in the 
back of the road could not even hear the last final names. Then 
at the end of the last name, and I was emceeing this event, I 
said, oh, gosh, we are going to have a moment of silence. These 
damn birds had better shut up. The last name was read, there 
was one caw, and complete silence and we had 30 seconds of 
silence and I came up and thanked the crowd and you could see 
all the birds fly away.
    What was odd was I did not know this, but a Native American 
friend of mine came up afterwards and said, you know, he was in 
tears, and a lot of people were, and he said, ``Do you 
understand what happened at that moment?'' I said, well, these 
birds came and they were making too much noise and I was hoping 
they would shut up. And he said, ``No. In our Native American 
culture, the shamen say that crows and ravens and blackbirds 
are the spirits of your ancestors and that apparently your 
ancestors came back, because of those 272 names, only about 50 
of them remain,'' and that is my final point.
    For far too often, our society makes monuments and 
memorials to honor or to represent the events and people way 
long after they have gone. It has been 60 years, and as you can 
figure by your math, the youngest of those people are old. The 
sooner we have this to memorialize in their memory and to honor 
and to recognize and cherish the friends and the community and 
welcome them home, the more appropriate this memorial will mean 
to all of us. Thank you very much.
    Mr. Radanovich. Mr. Moriwaki, very good testimony. I 
appreciate your contribution here.
    [The prepared statement of Mr. Moriwaki follows:]

 Statement of Clarence Moriwaki, Chair, Bainbridge Island WWII Nikkei 
               Interment and Exclusion Memorial Committee

    On March 30, 1942, American history was made in Washington state 
when 227 Bainbridge Island men, women and children of Japanese 
ancestry--most of them U.S. citizens - were escorted by armed U.S. Army 
soldiers and solemnly walked down Taylor Avenue to the old Eagledale 
ferry landing.
    With only six days notice and only allowed to bring what they could 
carry or wear, they boarded the ferry Kehloken and said goodbye to 
Bainbridge Island, starting on a lonely journey with an unknown 
destination and fate.
    They were the first of more than 120,000 Japanese-Americans to be 
forcibly removed from their homes on the West Coast and experience 
three years of unconstitutional imprisonment.
    Not all were imprisoned. Some were unjustly arrested, some moved 
away and others served in the U.S. military, but all were forbidden to 
remain.
    Their only crime--being Nikkei, persons of Japanese ancestry.
    The Bainbridge Island WWII Nikkei Exclusion Memorial Committee, a 
joint endeavor of the Bainbridge Island/North Kitsap Interfaith Council 
and the Bainbridge Island Japanese American Community, has been working 
to establish a memorial that will honor the people and families who 
experienced this tragic moment in American history tell a lasting story 
for future generations.
    We have entitled this proposed memorial Nidoto Nai Yoni (Knee-doe-
toe Nigh Yoe-knee), or ``Let it not happen again.''
    Currently there are national monuments at the Minidoka and Manzanar 
concentration camps in the distant deserts of Idaho and California. 
While these two sites can clearly tell the story of a time in our 
nation's history when constitutional rights were ignored, these camps 
by design were placed in very remote places and are not easily 
accessible.
    That's not the case here. Bainbridge Island is a short and pleasant 
ferry ride just six miles west of Seattle in Puget Sound, and this 
important story can be told at the Nidoto Nai Yoni Memorial within easy 
reach of many more people.
    Indeed, for those discovering or wanting to learn about this period 
in our nation's history, since the first steps away from freedom began 
at the old Eagledale ferry landing, the Nidoto Nai Yoni Memorial is the 
literal and symbolic starting point for the existing national monuments 
at Minidoka and Manzanar.
    Our vision is non-controversial and has received statewide, 
bipartisan support including the governor and unanimous resolutions 
from the state legislature, county commissioners and city council, and 
it is the top legislative issue for the National Japanese American 
Citizens League.
    Clearly, the historic significance of the site is beyond question. 
History always recognizes ``first places'' and the mere mention of them 
tells the story--Kitty Hawk, Plymouth Rock--and we are confident that a 
study by the Department of the Interior would clearly show that 
Bainbridge Island's Eagledale Ferry landing is one of those important 
first places in American history.
    We believe the study could be done in record time. Most--if not 
all--of information that the Department of the Interior will need is 
already well documented and readily available. Indeed, a comprehensive 
study of the site was completed a few years ago by a team of University 
of Washington researchers as part of an effort to designate the site as 
a National Landmark. However, since little of the original site 
integrity remains today it would likely not qualify for landmark 
status.
    Our committee has also developed some dream conceptual designs of 
what we hope this national memorial could someday be, with the help of 
nationally recognized architect and fellow Bainbridge Island resident 
John Paul Jones,
    A final point. Far too often, society creates monuments and 
memorials long after the people who experienced that moment in history 
are no longer with us to be honored.
    We have a unique opportunity on Bainbridge Island to create a 
national memorial that will honor those who suffered, cherish the 
friends and community who stood beside them and welcomed them home, and 
to inspire all Americans to safeguard constitutional rights for all by 
embracing the spirit of our proposed memorial, Nidoto Nai Yoni, or 
``Let it not happen again''
                                 ______
                                 
    Mr. Radanovich. Ms. Kordonowy, we will hear from you when 
we get back. We have two votes, and we will be in recess until 
then.
    [Recess.]
    Mr. Radanovich. We are back in session. I want to thank you 
for indulging us while we get our votes out of the way.
    I want to introduce the Honorable Darlene Kordonowy, who is 
the Mayor of Bainbridge Island in Washington. Darlene, welcome 
to the Committee and you may begin your testimony.

   STATEMENT OF DARLENE KORDONOWY, MAYOR, BAINBRIDGE ISLAND, 
                           WASHINGTON

    Ms. Kordonowy. Thank you, Chair Radanovich and all the rest 
of the council members. I will take just a few minutes to add 
to Mr. Moriwaki's testimony.
    Particularly, I want to emphasize that this is a non-
controversial subject back in the State of Washington, and at 
least around the Seattle and the Kitsap County area, where I am 
from. The Kitsap County commissioners have unanimously resolved 
to support this effort. The City Council of Bainbridge Island 
has resolved to do the same. The State legislature unanimously 
passed a resolution in support of the effort that we are 
undertaking, and Governor Locke was at a memorial service on 
March 30 of this year.
    We have been working at this since about 1995, looking at 
the 55-acre site where the Wyckoff creosote plant was, and 
where the Japanese American Memorial site will be. We are 
concerned that the area could go into development at some point 
in time if we do not take action quickly. Your support of H.R. 
3747 will be the first step of a study that would allow us to 
examine the opportunities that we have to look at the Japanese 
American Memorial, which is about 14 acres. The remainder of 
the site is of significance, as well, since it is a Superfund 
site. We believe the entire acreage of 55 acres has for us the 
significance of both the historical and cultural interest as 
well as environmental interest.
    So we look forward to your support for the study and the 
people of Bainbridge Island want to convey to you that we are 
willing to do our part to limit the amount of tax dollars that 
would be required to both maintain this site and to raise funds 
to help purchase the site, if necessary. But again, the study 
is the first step. Thank you.
    Mr. Radanovich. You are very welcome. Thank you very much.
    [The prepared statement of Ms. Kordonowy follows:]

   Statement of Darlene Kordonowy, Mayor, City of Bainbridge Island, 
                            Washington State

    The City of Bainbridge Island strongly supports H. R. 3747, the 
study by the National Park Service of the Eagledale Ferry Dock for a 
national memorial. The City has been actively working with the WW II 
Nikkei Exclusion Memorial Committee to create a national memorial at 
the Eagledale Ferry Dock site.
    The events that occurred there 60 years ago are part of the 
American story of the 1942 Exclusion Order that affected thousands of 
people. It is a story of social injustice, dealing with our fragile 
constitutional rights. An American story that needs to be told. And it 
should be told through interpretation and in context of the historical 
events of the time.
    Sixty years ago we were a country at war, and because Bainbridge 
Island had two military installations and was an island easily 
contained, our community was selected as the first to be affected by 
the Exclusion Order. While most people throughout America applauded the 
government's action, most of the Bainbridge community was opposed. 
These were our neighbors and friends being excluded. None were more 
visibly opposed than the late Walt and Milly Woodward, publishers of 
the Bainbridge Review newspaper. This small newspaper was the first and 
only paper on the West Coast that opposed the internment and bravely 
urged its readers to do likewise. Throughout the war, the Woodwards 
continued to maintain contact with those interned, reporting events and 
activities of the camp in the Island paper.
    After the war and the release from the internment camps, more than 
half of the Japanese Americans from Bainbridge Island came back home. 
Our community welcomed them, primarily because of the continued and 
vocal support of the Woodwards.
    The Eagledale Ferry Dock is gone now, but the remnants of the 
pilings are still visible, located in Eagle Harbor, across from 
Winslow. The proposed memorial site is at the western end of a 55-acre 
Superfund site, that for more than 80 years was the home of one of the 
West Coast's most productive creosote wood treatment plants. Currently 
under clean up, the Wyckoff Superfund site is linked both 
geographically and historically to the old Eagledale Ferry landing.
    Our community is working toward establishing both these sites, the 
Eagledale Ferry Dock and the Wyckoff Superfund site, as a place for 
education, interpretation and healing. One area as a memorial, 
restoring human dignity; and the other as a park, restoring nature. 
Both sites are linked, telling stories of our national history and 
recognizing mistakes of our past actions.
    The story that Walt and Milly Woodward kept alive on their 
newspaper pages needs to be told to every generation. I am confident 
that a study of Eagledale Ferry landing by the National Park Service 
will clearly establish the importance of this little piece of 
Bainbridge Island, not just as the place where we first said good-bye 
to our neighbors, but as the beginning of the American story of the 
1942 Exclusion Order.
    The proposed memorial has strong support, receiving statewide 
endorsement, including Governor Locke, the Washington State 
legislature, Kitsap County Commissioners, and the Bainbridge Island 
City Council. Thank you for this opportunity to speak on behalf of my 
community in support of this National Parks study for the Eagledale 
Ferry Dock.
                                 ______
                                 
    [Attachments to Mayor Kordonowy's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T1552.001
    
    [GRAPHIC] [TIFF OMITTED] T1552.002
    
    Mr. Radanovich. I do not have anybody to recognize for 
questions.
    [Laughter.]
    Mr. Radanovich. I am kind of at a loss here, so hang on 
just a second. I want to make sure I get a question out of each 
one of you.
    These are going to be questions for the record. Ms. Ash, 
can you tell me, has the foundation developed a financial and 
management plan for this memorial that you want to place in 
D.C. and what kind of money is raised, because there was a 
question of being able to raise money, and how do you expect to 
raise money for the design and construction of the memorial?
    Ms. Ash. Mr. Chairman, we received our 501(c)(3) nonprofit 
status earlier this year, in March. We were waiting to get that 
before we could start to raise significant dollars. We have put 
together a management team that can start to develop our 
financial plan, our business plan, and we anticipate using best 
practices that we have seen from other monuments that have been 
built and learn from those and use corporate sponsorship, 
private funding, and other similar fundraising activities.
    Mr. Radanovich. OK, thank you.
    Mr. Sheffield, regarding Andersonville, has the local 
government been involved and supportive in the process of this 
effort?
    Mr. Sheffield. Yes, very much so. The State of Georgia, 
primarily through providing transportation facilities, widening 
of the highway, and the entranceway was paid for by the State 
of Georgia. Local government supplied help all along. Macon 
County has grade and based the access road for the people who 
live adjacent to our park, so they have been most helpful in 
that way. The other little towns around are helpful mainly in 
providing volunteers to work with the help of the park.
    Mr. Radanovich. Thank you, Mr. Sheffield.
    For Mr. Moriwaki or Ms. Kordonowy, there was mention in the 
testimony regarding the Wyckoff Superfund site. What effect, if 
any, would this have on the development of the Eagledale Ferry 
Dock as a unit of the National Park System? For example, would 
there be any cost associated with the cleanup or potential 
cleanup of a site like that?
    Mr. Moriwaki. The 55-acre site, which is the south side of 
Eagle Harbor, almost all of it is clean. Only the point where 
the actual creosote operations took place. In the blue packets 
I passed around, there is an overlay map. The Eagledale Ferry 
Landing was on the very west end of the Wyckoff property. 
Actually, Taylor Road is a territorial road with a right-of-way 
which is not even part of the Wyckoff property. However, our 
envisioned plan needs an interpretive center, parking, and all 
of that, so it is part of the West end of the Wyckoff property, 
which is clean and has been clean for quite some time. None of 
the creosote operations took place on that very west end or 
upper end of the property.
    Mr. Radanovich. All right, thank you.
    Ms. Kordonowy. May I add to that, sir?
    Mr. Radanovich. Sure.
    Ms. Kordonowy. We received a letter in August, August 2nd 
of this year, from the Department of Ecology with the State 
saying that once the cleanup occurs, the State will fulfill its 
obligations for any maintenance costs that might occur as a 
result of the cleanup.
    Mr. Radanovich. OK, good. Can we get a copy of that letter 
for the record?
    Ms. Kordonowy. Certainly, we will be sure to get you a 
copy.
    Mr. Radanovich. That will be supportive in your effort 
there.
    Ms. Kordonowy. Thank you.
    [The letter from the Washington State Department of Ecology 
follows:] 
[GRAPHIC] [TIFF OMITTED] T1552.003


    Mr. Radanovich. Are there any other questions? Jay, do you 
have anything?
    Mr. Inslee. No.
    Mr. Radanovich. OK, great. Thank you very much for coming 
to Washington to testify for your projects. We appreciate it 
very much.
    With that, this hearing is closed. Thank you.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]


</pre></body></html>
